                                                       NATIONAL SCIENCE FOUNDATION
                                                        OFFICE OF INSPECTOR GENERAL
                                                          OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

Case Number: A12110080                                                                           Page 1 ofl



                                                                                   1
                 NSF informed us of discrepancies between a program officer's annual conflict of interests
         disclosure (OGE Form 450) and his Independent Research and Development (IR/D) plan. The
         discrepancies related to the program officer's involvement on editorial boards and advisory
         committees. Disclosures of these activities are specifically required on OGE Form 450 for both paid
         and unpaid positions. This information is also requested on the IR/D plan which allows program
         participants a portion of their NSF duty-time to maintain currency in their research areas.

                 The Deputy Agency Ethics Official's (D AEO) staff in the Office of General Counsel review
         submitted OGE Form 450s for all covered employees on an annual basis as well as on new
         employees' entry into NSF. According to the IRID application, OGC review of the IRID plans is not
         triggered unless the plan includes one of four narrowly described situations that do not include
         participation on editorial boards or advisory committees. However, the NSF personnel manual
         requires OGC to review all IRID plans. The IRID plan in this case was not reviewed in OGC when it
         was submitted or when it was resubmitted by the program officer months later. The discrepancy was
         not identified until after the program officer submitted a travel voucher related to his participation at
         an advisory committee meeting for which the committee reimbursed some of his travel expenses.

                 We interviewed the program officer and reviewed his OGE Form 450 and IR/D plan with
         him. Prior to coming to NSF he had never made a financial disclosure of the type required in OGE
         Form 450. He made corrections to his original OGE Form 450 at the request ofOGC but failed to
         include the positions on editorial boards and advisory committees. He demonstrated confusion with
         respect to the terminology used to describe positions that required disclosure. There was insufficient
         evidence to establish a knowing intent to omit the required information. Absent such evidence, there
         is no support for proceeding with this case.

                   Accordingly, this case is closed.




NSF OIG Form 2 (11102)
